U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Anthony Sistrunk v. United States of America,
S.Ct. No. 20-7889

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 21,
2021, and placed on the docket on April 29, 2021. The government’s response is due on June 1,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7889
SISTRUNK, ANTHONY
USA

DANIEL M. MYSHIN
4800 LINGLESTOWN ROAD
SUITE 305
HARRISBURG, PA 17112-9507
717-541-5451

